la
APPENDIX
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2693
Adam E. Billings
Movant - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Western
District of Missouri - Springfield
(6:20-cv-03064-MDH)
JUDGMENT
Before LOKEN, ERICKSON, and GRASZ, Circuit
Judges.

f
*,
k
i;'

2a
This appeal comes before the court on
appellant's application for a certificate of
appealability. The court has carefully reviewed the
original file of the district court, and the application
for a certificate of appealability is denied. The
appeal is dismissed.
December 07, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

3a
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
ADAM E. BILLINGS,

)

Movant,

)

) Case No. 20-3064-CV-Svs.

) MDH-P
)

UNITED STATES OF ) (Crim. Case No. 17-03020AMERICA,

) 01-CR-S-MDH))

Respondent.

)

ORDERDENYING MOTION TO VACATE
SENTENCE (28 U.S.C. § 2255)AND DECLINING TO
ISSUE A CERTIFICATE OF APPEALABTT JTY
Movant pled guilty to possession with intent to
distribute 50 grams or more of methamphetamine,
and the Court sentenced him to 292 months’
imprisonment. Crim. Doc. 39.6 Movant appealed, and
the Court of Appeals affirmed this Court’s judgment,
finding no error of judgment “in weighing relevant
6

“Crim. Doc.” refers to filings in Movant’s Criminal case.
“Doc.” refers to filings in this § 2255 case.

V

4a
factors,” and concluding that the sentence was
reasonable. Crim. Doc. 51-1, p. 2. Movant now seeks
to vacate his sentence pursuant to 28 U.S.C. § 2255.
For the reasons explained below, the motion is
DENIED.
Movant claims two grounds for relief. Within
the first ground, Movant claims he was denied
effective assistance plea counsel because his attorney
failed to (a) “enforce plea negotiated terms in regards
to Career Offender status,” (b) “effectively argue
prejudice in drug quantities and purities,” and (c)

r

“argue against inapplicable leadership role

v

enhancement.” Doc. 1, p. 4.

Also within the first

ground, Movant claims he was denied effective
assistance of appellate counsel because his attorney
“doomed the appeal” by filing an Anders brief. Id.
As his second ground for relief, Movant claims the
Government breached the plea agreement by
dropping the §851 enhancement, allowing the
presentertce investigation report to assess the
career-offender enhancement, and by illegally
searching his residence. Id. at 5.

5a
In order to prevail on his ineffective-assistance
claims, Movant must show that the performance of
counsel was both constitutionally deficient and
prejudicial. Strickland v. Washington,466 U.S. 668,
687 (1984); Hill v. Lockhart, 474 U.S. 52, 58 (1985)
(Strickland standard applies to the performance of
plea counsel); Smith v. Robbins, 528 U.S. 259, 285
(2000) (Strickland standard applies to the
performance of appellate counsel). In order to prevail
on his Government-misconduct claims, Movant must
show both “flagrant misconduct and substantial
prejudice.” See United States v. Wadlington, 233
F.3d 1067, 1073 (8thCir. 2000). As for all claims,
Movant bears the burden of proof. Kress v. United
States, 411 F.2d 16, 20 (8th Cir. 1969).
Regarding aspects of both grounds for relief,
Respondent argues:
Billings seems to believe the statutory
§851 enhancement is synonymous to a
Career offender designation under the
Sentencing Guidelines. An §851
enhancement is not the same thing as a
Sentencing Guidelines’ career offender
designation. An §851 enhancement

6a
changes a defendant’s statutory range of
punishment. In Billings’s case, had the
Government pursued §851 enhancements
at sentencing, Billings would have faced a
statutory mandatory-minimum sentence of
20 years’ or life imprisonment, depending
on whether the Government provided
notice of one prior drug felony or two -a
fact that Billings acknowledges.
The career offender designation is
accounted for within the Sentencing
Guidelines. Unlike an §851 enhancement,
the Sentencing Guidelines do not fix the
permissible range of sentences, but merely
guide the exercise of a sentencing court’s
discretion in choosing an appropriate
sentence within the statutory range.
During Billings’s change-of-plea hearing,
he acknowledged that the Sentencing
Guidelines were advisory and that he could
be sentenced either above or below that
range, up to life imprisonment, based on
this Court’s discretion. Billings also
confirmed his ability to read and write,
and [he] told this Court that he had read

; •
•••if

i ■

l

7a
the plea agreement and had discussed the
terms with counsel.
Billings expressly agreed that he
could not withdraw his guilty plea solely
because he did not like the sentence
length. Billings signed the plea agreement
acknowledging that he entered into it
freely and voluntarily. Billings confirmed
under oath that he signed the agreement
without threats or promises outside of the
agreement.
Because there was no agreement
relating to the PSR’s enhancements,
Billings has failed to demonstrate
ineffective assistance or prosecutorial
misconduct in applying the career offender
enhancement under the Sentencing
Guidelines.
Doc. 5, pp. 7-9 (citations and footnote omitted).
Regarding Movant’s assertion that plea
counsel was ineffective for not attempting to expunge
three California drug convictions, as Respondent
correctly notes: “Billings provides nothing more than

t-

8a
speculation that the priors could be expunged,” and
“[speculation is insufficient to show a reasonable
probability that the result would have been
different[.]” Doc. 5, p. 10 (citation and quotation
marks omitted).
Regarding Movant’s challenges concerning the
quantity and purity of the drugs involved, as
Respondent correctly notes, plea counsel argued to
the Court that the “drug quantities and respective
purity level were speculative[.]” Doc. 5, p. 12
(citations to the record omitted). Although
unsuccessful, counsel made the argument. Further,
Respondent’s argument that no governmental
misconduct was involved in determining drug
quantity and purity, also is correct, based in part on
Movant’s post-Miranda interview and laboratory
tests. See id. at 13.

‘

Regarding Movant’s complaint about the twolevel leadership adjustment, Movant acknowledged in
his § 2255 motion that he “paid [his] neighbor $100
to receive this package [containing
methamphetamine] and deliver it,” Doc. 1, p. 18, and,
as Respondent correctly notes, “a defendant may be
subject to the [leadership] enhancement even if he

9a
managed or supervised only one participant, limited
to a single transaction.” Doc. 5, p. 14 (citations
omitted).
For the reasons explained above, Movant has
failed to show that he was denied effective assistance
of plea counsel or that he was subjected to
governmental misconduct. Regarding the
performance of appellate counsel, the Court discerns
no constitutional violation because the Court of
Appeals “independently reviewed the record,” and
found “no nonfrivolous issues for appeal.” Crim. Doc.
51-1, p. 2. Finally, for the reasons set out by
Respondent, the Court agrees that, by pleading
guilty, Movant waived any Fourth Amendment issue

in

regarding the search of his residence. SeeDoc. 5, pp.
17-18.
The Court finds that an evidentiary hearing is
not required to resolve Movant’s claims, and, for the
reasons set out above, the Court denies Movant relief
pursuant to 28 U.S.C. §2255. Further, the Court
declines to issue a certificate of appealability. See 28
U.S.C. §2253(c)(2) (certificate of appealability may be
issued “only if [Movant] has made a substantial
showing of the denial of a constitutional right”). The

;

i.

10a
Clerk of the Court shall enter judgment dismissing
this case.
So ORDERED.
/s/ Douglas Harpool
DOUGLAS HARPOOL
UNITED STATES DISTRICT
JUDGE

11a
28 U.S.C. §2255
(a) A prisoner in custody under sentence of a
court established by Act of Congress claiming
the right to be released upon the ground that
the sentence was imposed in violation of the
Constitution or laws of the United States, or
that the court was without jurisdiction to
impose such sentence, or that the sentence was
in excess of the maximum authorized by law,
or is otherwise subject to collateral attack,
may move the court which imposed the
sentence to vacate, set aside or correct the
sentence.
(b) Unless the motion and the files and records of
the case conclusively show that the prisoner is
entitled to no relief, the court shall cause
notice thereof to be served upon the United
States attorney, grant a prompt hearing
thereon, determine the issues and make
findings of fact and conclusions of law with
respect thereto. If the court finds that the
judgment was rendered without jurisdiction,
or that the sentence imposed was not

12a
authorized by law or otherwise open to
collateral attack, or that there has been such a
denial or infringement of the constitutional
rights of the prisoner as to render the
judgment vulnerable to collateral attack, the

i

court shall vacate and set the judgment aside

i

and shall discharge the prisoner or resentence

l:

him or grant a new trial or correct the
sentence as may appear appropriate.
(c) A court may entertain and determine such
motion without requiring the production of the
prisoner at the hearing.
(d) An appeal may be taken to the court of appeals
from the order entered on the motion as from a
final judgment on application for a writ of
habeas corpus.
(e) Ah application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply
for relief by motion pursuant to this section,
shall not be entertained if it appears that the
applicant has failed to apply for relief, by

13a
motion, to the court which sentenced him, or
that such court has denied him relief, unless it
also appears that the remedy by motion is
inadequate or ineffective to test the legality of
his detention.

(f) A 1-year period of limitation shall apply to a
motion under this section. The limitation
period shall run from the latest of—
(1) the date on which the judgment of
conviction becomes final;
(2) the date on which the impediment to
making a motion created by governmental
action in violation of the Constitution or
laws of the United States is removed, if the .
movant was prevented from making a
motion by such governmental action;
(3) the date on which the right asserted was
initially recognized by the Supreme Court,
if that right has been newly recognized by
the Supreme Court and made retroactively
applicable to cases on collateral review; or
(4) the date on which the facts supporting the
claim or claims presented could have been

.

‘vr •

14a
discovered through the exercise of due
diligence.
(g) Except as provided in section 408 of the
Controlled Substances Act, in all proceedings
brought under this section, and any
subsequent proceedings on review, the court
may appoint counsel, except as provided by a
rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment
of counsel under this section shall be governed -

* •*

by section 3006A of title 18.
(h) A second or successive motion must be

' .

i

certified as provided in section 2244 by a panel
of the appropriate court of appeals to contain
(1) newly discovered evidence that, if proven
and viewed in light of the evidence as a
whole, would be sufficient to establish by
clear and convincing evidence that no
reasonable factfinder would have found the
movant guilty of the offense; or

:-r,

15a
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by
the Supreme Court, that was previously
unavailable.

■t

16a
28 U.S.C. §1254
Cases in the courts of appeals may be reviewed by
the Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition
of any party to any civil or criminal case,
before or after rendition of judgment or decree;
(2) By certification at any time by a court of
appeals of any question of law in any civil or
criminal case as to which instructions are
desired, and upon such certification the
Supreme Court may give binding instructions
or require the entire record to be sent up for
decision of the entire matter in controversy.

17a
21 U.S.C. §841(a)(l) - (b)(1)(A)
a) Unlawful acts
Except as authorized by this subchapter, it
shall be unlawful for any person knowingly or
intentionally—
-

(1) to manufacture, distribute, or dispense, or
possess with intent to manufacture,
distribute, or dispense, a controlled
substance; or
(2) to create, distribute, or dispense, or possess
with intent to distribute or dispense, a
counterfeit substance.

b) Penalties
Except as otherwise provided in section 849,
859, 860, or 861 of this title, any person who
violates subsection (a) of this section shall be
sentenced as follows:
(1)
A) In the case of a violation of subsection
(a) of this section involving—
(i)

1 kilogram or more of a mixture or
substance containing a detectable
amount of heroin;

18a
(ii)

5 kilograms or more of a mixture
or substance containing a
detectable amount of—
coca leaves, except coca leaves

(I)

and extracts of coca leaves
from which cocaine, ecgonine,
and derivatives of ecgonine or
their salts have been removed;
(II)

cocaine, its salts, optical and
geometric isomers, and salts of
isomers;

(III) ecgonine, its derivatives, their
salts, isomers, and salts of
isomers; or
(IV) any compound, mixture, or
preparation which contains
any quantity of any of the
substances referred to in
subclauses (I) through (III);
(iii)

280 grams or more of a mixture or
substance described in clause (ii)
which contains cocaine base;

(iv)

100 grams or more of
phencyclidine (PCP) or 1 kilogram

r-

19a
or more of a mixture or substance
containing a detectable amount of
phencyclidine (PCP);
(v)

10 grams or more of a mixture or
substance containing a detectable
amount of lysergic acid
diethylamide (LSD);

(vi)

400 grams or more of a mixture or
substance containing a detectable
amount of N-phenyl-N- [ 1- (2phenylethyl) -4-piperidinyl ]
propanamide or 100 grams or
more of a mixture or substance
containing a detectable amount of
any analogue of N-phenyl-N-[l-(2phenylethyl)-4-piperidinyl]
propanamide;

(vii) 1000 kilograms or more of a
mixture or substance containing a
detectable amount of marihuana,
or 1,000 or more marihuana
plants regardless of weight; or
(viii) 50 grams or more of
methamphetamine, its salts,

20a
isomers, and salts of its isomers or
500 grams or more of a mixture or
substance containing a detectable
amount of methamphetamine, its
salts, isomers, or salts of its
isomers;
such person shall be sentenced to a term of
imprisonment which may not be less than
10 years or more than life and if death or
serious bodily injury results from the use
of such substance shall be not less than 20
years or more than life, a fine not to exceed
the greater of that authorized in
accordance with the provisions of title 18
or $10,000,000 if the defendant is an
individual or $50,000,000 if the defendant
is other than an individual, or both. If any
person commits such a violation after a
prior conviction for a serious drug felony or
serious violent felony has become final,
such person shall be sentenced to a term of
imprisonment of not less than 15 years and
not more than life imprisonment and if
death or serious bodily injury results from
the use of such substance shall be
sentenced to life imprisonment, a fine not

21a
to exceed the greater of twice that
authorized in accordance with the
provisions of title 18 or $20,000,000 if the
defendant is an individual or $75,000,000
if the defendant is other than an
individual, or both. If any person commits
a violation of this subparagraph or of
section 849, 859, 860, or 861 of this title
after 2 or more prior convictions for a
serious drug felony or serious violent felony
have become final, such person shall be
sentenced to a term of imprisonment of not
less than 25 years and fined in accordance
with the preceding sentence.
Notwithstanding section 3583 of title 18,
any sentence under this subparagraph
shall, in the absence of such a prior
conviction, impose a term of supervised
release of at least 5 years in addition to
such term of imprisonment and shall, if
there was such a prior conviction, impose a
term of supervised release of at least 10
years in addition to such term of
imprisonment. Notwithstanding any other
provision of law, the court shall not place
on probation or suspend the sentence of
any person sentenced under this

22a
subparagraph. No person sentenced under
this subparagraph shall be eligible for
parole during the term of imprisonment
imposed therein.

i

23a
United States of America, Plaintiff-Appellee,
v.
Marcus Broadway, Defendant-Appellant.
No. 19-2979.
United States Court of Appeals, Eighth Circuit.
Submitted: April 15, 2020.
Filed: August 5, 2020.

$

Appeal from United States District Court for
the Western District of Arkansas — Fayetteville
Before KELLY, WOLLMAN, and STRAS,
Circuit Judges.
[Unpublished]
PER CURIAM.
Marcus Broadway, who received 100 months in
prison for distributing methamphetamine, see
21 U.S.C. § 841(a)(1), appeals his sentence on
two grounds. The first is that the district court7
should not have sentenced him as a career
7

The Honorable Timothy L. Brooks, United States District
Judge for the Western District of Arkansas.

,:s'

24a
offender. See U.S.S.G. § 4Bl.l(a). The second is
that he did not deserve an enhancement for
possessing a dangerous weapon. See id. §
2D1.1(b)(1). Neither argument entitles him to
relief.
The first issue turns on whether Broadway's
prior convictions of delivery of cocaine and
attempted delivery of cocaine qualify as
"controlled substance offense[s]" under the
Sentencing Guidelines. U.S.S.G. § 4Bl.l(a); see
Ark. Code Ann. § 5-64-401(a)(l)(A)(i) (Supp.
2005); id. § 5-64-422(a) (Supp. 2011). A
"controlled substance offense" includes
"distribution," U.S.S.G. § 4B1.2(b), which can be
accomplished through "deliver[y]," Ark. Code
Ann. § 5-64-101(9); see id. § 5-64-101(6). The
commentary extends the reach of section
4B1.2(b) to attempted distribution, even though
the provision itself lists only completed acts.
U.S.S.G. § 4B1.2, cmt. n.i. Since 1995, we have
deferred to the commentary, hot out of its
fidelity to the Guidelines text, but rather
because it is not a "plainly erroneous reading" of
it. United States v. Mendoza-Figueroa, 65 F.3d
691, 693 (8th Cir. 1995) (en banc); accord, e.g.,
United States v. Garcia, 946 F.3d 413, 417 (8th

25a
Cir. 2019); United States v. Reid, 887 F.3d 434,
437 (8th Cir. 2018); see also Stinson v. United
States, 508 U.S. 36, 44-45 (1993) (giving
deference to the Guidelines commentary under
Bowles v. Seminole Rock & Sand Co., 325 U.S.
410 (1945), because it is analogous to an
agency's interpretation of its own regulation).8
For this reason, both of Broadway’s convictions
count as "controlled substance offense[s]."
Broadway's challenge to the two-level
dangerous-weapon enhancement fares no
better.9 See U.S.S.G. § 2D1.1(b)(1). Broadway
was arrested in his girlfriend's apartment,
where law enforcement found a gun that he
acknowledged possessing. The only dispute is
8

9

We are not in a position to overrule Mendoza-Figueroa, as
Broadway urges us to do, even if there have been some
major developments since 1995. See Kisor v. Wilkie, 139 S.
Ct. 2400, 2414 (2019) (emphasizing that Auer/Seminole
Rock deference is triggered only by "genuine!] ambigu[ity]");
United States v:Booker, 543 U.S. 220, 259-61 (2005)
(making the Sentencing Guidelines advisory).
Due to Broadway’s career-offender status, the enhancement
did not affect his Guidelines range. See U.S.S.G. § 4Bl.l(b)
(3). This fact does not make his challenge moot, however,
because of the potential impact on his eligibility for early
release. 28 C.F.R. § 550.55(b)(5)(ii); see United States v.
Torres, 409 F.3d 1000, 1002-03 (8th Cir. 2005).

■!

26a
whether the gun was "connected with the
offense." Id. § 2D1.1, cmt. n.11(A).
The bar is not high. See United States v.
Anderson, 618 F.3d 873, 882 (8th Cir. 2010)
(describing it as "very low"). Unless it is "clearly
improbable that the weapon was connected with
the offense," including any relevant conduct, the
enhancement applies. U.S.S.G. § 2D1.1, cmt.
n.ll(A); see United States v. Ault, 446 F.3d 821,
824 (8th Cir. 2006). Along with the gun, officers
recovered over $2,000 in cash, plastic baggies,
and 54.5 grams of marijuana in the apartment.
The presence of these items allowed the district
court to "infer[] that a gun near the vicinity of
drug activity [was] somehow connected to it."
United States v. Peroceski, 520 F.3d 886, 889
(8th Cir. 2008). In light of this evidence, the
enhancement stands. See United States v.
Torres, 409 F.3d 1000, 1003 (8th Cir. 2005)
(applying clear-error review).
We accordingly affirm the judgment of the
district court.

27a
UNITED STATES OF AMERICA, PlaintiffAppellee,
v.
MARTEZ L. SMITH, Defendant-Appellant.
No. 20-1117.
United States Court of Appeals, Seventh
Circuit.
Argued October 28, 2020.
Decided March 3, 2021.
Appeal from the United States District Court
for the Central District of Illinois, No. 18-cr20037 — Michael M. Mihm, Judge.
Before RIPPLE, WOOD, and BRENNAN,
Circuit Judges.
BRENNAN, Circuit Judge.
Illinois law enforcement agents received a tip
from a confidential source claiming that Martez
Smith had been dealing methamphetamine in
Mattoon, Illinois. The agents conducted
controlled buys between Smith and the source,
and in the course of the investigation, requested

28a
a patrol officer stop Smith's vehicle. During that
stop, the officer found marijuana, a marijuana
grinder, and a firearm in Smith's vehicle. The
officer arrested Smith and seized the gun. A
federal grand jury indicted Smith on one count
of distributing methamphetamine and one count
of possessing a firearm as a felon.
Represented by court-appointed counsel, Smith
pleaded guilty to both counts. He then sought to
retract his guilty plea, alleging ineffective
assistance of counsel. The court denied Smith's
motion to withdraw his guilty plea, rejected his
request for an evidentiary hearing, and
sentenced him on the two counts. On appeal,
Smith challenges the district court's denial of
his ineffective assistance of counsel claim and
his career offender sentencing enhancement. We
affirm the district court's decision in full.
I
A
In July 2018, Illinois law enforcement agents
received a tip from a confidential source, who
claimed he had been purchasing

29a
methamphetamine from Martez Smith in the
Mattoon, Illinois area for the past two months.
Based on this information, the agents arranged
a series of controlled buys between Smith and
the source.
The first controlled buy occurred on July 9, ■
2018. After the transaction, the source returned
to the agents and gave them approximately 46
grams of "ice" methamphetamine that he had
just purchased from Smith. With a failed
attempt in the interim, the agents conducted
another controlled buy on July 27. As
instructed, the source text messaged Smith to
purchase three ounces of methamphetamine.
Smith replied "yea” and agreed on a time for the
transaction. That day, the agents observed
Smith driving as if to avoid surveillance while
en route to the scheduled transaction and
requested a nearby patrol officer to pull him
over. The officer identified Smith's vehicle,
noticed it had "extremely dark window tinting,"
and ordered Smith to stop. When he attempted
to measure the window tint, the officer realized
that the batteries of his tint meter had failed, so
he radioed other officers to bring him a new one.

* „

-

M.

30a
During the approximately ten-minute wait, the
officer learned that Smith's driver's license had
been suspended. He asked Smith if he had any
contraband in the vehicle. Smith said no. The
officer then searched the vehicle and found a
small amount of marijuana, a marijuana
grinder, and a 9mm pistol with a 30-round
extended magazine attached;10 In a later
interview, Smith admitted to possessing the
firearm but denied selling methamphetamine.

f

c

r
.1£

B
In August 2018, a federal grand jury indicted
Smith on two counts: (1) distribution of 50
grams or more of methamphetamine in violation
of 21 U.S.C. §§ 841(a)(1) and (b)(1)(B) ("Count
1"); and (2) possession of a firearm by a felon in
violation of 18 U.S.C. § 922(g) ("Count 2").
Smith pleaded not guilty to both counts.
•

-*

• i

The district court appointed Attorney Johanes
Maliza to represent Smith. With Maliza's
representation, Smith changed his plea to guilty
in November 2018. During the change-of-plea
10 Whether Smith consented to the vehicle search is disputed,
but the answer to that question does not affect our decision.

.r •

lr:-

il
f

31a
hearing before the magistrate judge, the parties
agreed that, in addition to the felon-in­
possession charge, Smith would plead guilty
only to the lesser-included offense of
distributing controlled substance between 5 and
50 grams because the laboratory results
revealed that Smith sold less than 50 grams of
methamphetamine.
The ensuing plea colloquy was thorough. Smith
testified under oath in response to the court's
questions. The magistrate judge asked Smith
whether he had sufficient time to review the
case with his counsel, whether he was satisfied
with his counsel's representation, and whether
he discussed the specific charges with his
counsel. Smith answered "yes" to all three
questions and admitted under oath that he
distributed methamphetamine on July 9, 2018,
and knowingly possessed a firearm as a felon on
July 27, 2018. The court then asked Smith how
he wanted to plead, to which Smith answered
"guilty" on both counts.
Following his guilty plea but before sentencing,
Smith filed two pro se motions seeking to
withdraw his pleas based on ineffective

32a
assistance of counsel. Among various claims,
Smith alleged that Maliza failed to investigate
and to file a motion to suppress the firearm
found in his car. Simultaneously, Maliza moved
to withdraw as counsel, citing "a direct and
irreconcilable conflict of interest" with Smith.
The court granted Maliza's motion and
appointed new counsel. By counsel, Smith then
moved to withdraw his guilty plea and
requested that the court hold an evidentiary
hearing on Maliza's alleged ineffective
assistance. The district court denied both
requests and proceeded to sentencing.
,
The presentence investigation report
recommended a career offender enhancement
under U.S.S.G. § 4B1.1 for Smith's two prior
convictions: a 2009 federal conviction for
conspiring to possess with intent to distribute
cocaine in violation of 21 U.S.C. § 846 and a >
2013 Indiana conviction for attempted armed
robbery. Smith objected to this enhancement,
arguing that his conspiracy conviction does not
constitute a predicate "controlled substance
offense" as required by the provision.
Specifically, he asserted that the plain language

i
i

>

?!

•d

1
33a
of the Sentencing Guidelines does not include
inchoate offenses like § 846 narcotics conspiracy.
Relying on United States v. Adams, 934 F.3d
720 (7th Cir. 2019), the district court rejected
Smith's argument and held that § 846
conspiracy constitutes a predicate "controlled
substance offense." It concluded that Smith
qualified for the career-offender enhancement
under § 4B1.1. The district court sentenced
Smith to 214 months' imprisonment on Count 1
and 120 months' imprisonment on Count 2 to be
served concurrently. Smith timely appealed to
this court.
II
A
Smith first challenges the district court's denial
of his motion to withdraw his guilty plea, which
we review for an abuse of discretion. United
States v. Barr, 960 F.3d 906, 917 (7th Cir. 2020).
A defendant may withdraw a guilty plea after
the district court accepts the plea, but before it
imposes a sentence, by showing "a fair and just

34a .
reason for requesting the withdrawal." FED. R.
CRIM. P. 11(d)(2)(B). Ineffective assistance of
counsel serves as a "fair and just" reason for
withdrawing a plea. See United States v. Graf,
827 F.3d 581, 583-84 (7th Gir. 2016); see also
Hurlow v. United States, 726 F.3d 958, 967 (7th
Cir. 2013) (noting that a plea that resulted from
ineffective assistance of counsel cannot be
knowing and voluntary). To establish ineffective
assistance of counsel, a defendant must show
that his counsel rendered deficient performance
and that the deficiency prejudiced him.
Strickland v. Washington, 466 U.S. 668, 688,
694 (1984). In other words, a defendant must
show that his counsel rendered objectively
unreasonable performance and that, but for
counsel's errors, the outcome would have been
different. Id. We need not address both deficient
performance and prejudice prongs "if the
defendant makes an insufficient showing on
one." Id. at 697; see Armfield v. Nicklaus, 985
F.3d 536, 548 (7th Cir. 2021) (same).
In the guilty plea context, we apply the modified
Strickland analysis articulated in Hill v.
Lockhart, 474 U.S. 52 (1985). See Gish v. Hepp,
955 F.3d 597, 605 (7th Cir. 2020). Under Hill,

35a
the deficient performance prong remains largely
unchanged. A defendant must show that his
counsel rendered objectively unreasonable
performance and "performed seriously below
professional standards." United States v.
Williams, 698 F.3d 374, 386 (7th Cir. 2012). On
the prejudice prong, a defendant must show a
"reasonable probability that, but for counsel's
errors, he would not have pleaded guilty and
would have insisted on going to trial." Lee v.
United States, 137 S. Ct. 1958, 1965 (2017)
(quoting Hill, 474 U.S. at 59). The prejudice
inquiry into counsel's failure to investigate "will
depend on the likelihood that discovery of the
evidence would have led counsel to change his
recommendation as to the plea." Hill, 474 U.S.
at 59 (adding that "[tjhis assessment, in turn,
will depend in large part on a prediction
whether the evidence likely would have changed
the outcome of a trial").
A guilty plea, however, "should not lightly be
withdrawn." United States v. Brown, 973 F.3d
667, 715 (7th Cir. 2020). Courts must "not upset
a plea solely because of post hoc assertions from
a defendant about how he would have pleaded
but for his attorney's deficiencies." Lee, 137 S.

.*

£.
■M

■*:

36a
Ct. at 1967. We instead "look to
contemporaneous evidence to substantiate a
defendant's expressed preferences" and only
allow a withdrawal if we are convinced that the
defendant would have pleaded differently. Id.
Smith alleges three deficiencies in Maliza's
performance: (1) failure to investigate and file a
motion to suppress the firearm found in the car;
(2) pressure to hastily plead guilty; and (3)
general unfamiliarity with the facts of the case.
The district court denied these claims as either
lacking merit or otherwise undermined by the
record. We agree and analyze each of Smith's
arguments in turn.

£2- ■

■
f

•

■

•}

Motion to Suppress.
When the alleged deficiency is based on
counsel’s failure to move to suppress evidence, a
defendant must "prove the motion was
meritorious." Long v. United States, 847 F.3d
916, 920 (7th Cir. 2017) (internal quotation
marks omitted). But here any alleged deficiency
by Maliza matters only if Smith could show that
suppressing the firearm evidence likely would

■ r

37a
have changed the outcome of the trial. Hill, 474
U.S. at 59.
Smith claims that a motion to suppress would
have succeeded because the patrol officer did not
have consent or a warrant to search his vehicle.
Warrantless searches are per se unreasonable
under the Fourth Amendment, unless an
exception applies. United States v. Kizart, 967
F,3d 693, 695 (7th Cir. 2020) (citing Arizona v.
Gant, 556 U.S. 332, 338 (2009)). The record
suggests that the automobile exception applies
here. Under the automobile exception, an officer
may search a vehicle without a warrant if there
is probable cause. Kizart, 967 F.3d at 695; see
United States v. Sands, 815 F.3d 1057, 1061-62
(7th Cir. 2015) ("A warrantless arrest is
constitutionally permissible if supported by
probable cause...."). Probable cause exists "if,
given the totality of the circumstances, there is
a fair probability that contraband or evidence of
a crime will be found in a particular place."
United States v. Eymann, 962 F.3d 273, 286 (7th
Cir. 2020) (internal quotation marks omitted).
The patrol officer here had probable cause to
stop Smith and search his vehicle. Law

•f

38a
enforcement agents had already conducted a
controlled buy, and they had scheduled another
on the day of the arrest. The agents even had
text message evidence detailing the transaction
planned for later that day. Smith was also
driving suspiciously moments before the officer
stopped him and had illegally tinted windows on
his car. And although the officer may not have
known all the facts supporting probable cause,
he was acting at the direction of the agents who
did. See United States v. Khan, 937 F.3d 1042,
1052 (7th Cir. 2019) (noting that the collective
knowledge doctrine "permits a stop at the
direction of, or based on information relayed
from, another law enforcement agency"); see
also United States v. Nicksion, 628 F.3d 368,
376-77 (7th Cir. 2010) (finding that the
collective knowledge of law enforcement
provided ample probable cause for officers to
stop and arrest the defendant and search his
vehicle). The totality of the circumstances
leading up to the stop demonstrates a fair
probability that Smith's vehicle contained
contraband. The officer therefore had probable
cause to stop Smith and to search his vehicle.
Without more, Smith cannot establish that he

39a
would have succeeded on his motion to suppress
the firearm evidence.
Time Pressure.
Smith also contends that Maliza rendered
ineffective assistance by pressuring him to take
the guilty plea. He alleges Maliza did so in part
by telling him that the government would file a
superseding indictment with an additional
charge if Smith did not plead guilty before the
grand jury reconvened. The district court
dismissed Smith's claims as conclusory or
otherwise undermined by the record noting that
"that there was no pressure for the defendant to
plead immediately."
We give special weight to a defendant's sworn
testimony in a Rule 11 plea colloquy. See Graf,
827 F.3d at 584 ("A defendant's motion to
withdraw is unlikely to have merit if it seeks to
dispute his sworn assurances to the court;").
That testimony is presumed true, and the
defendant bears a heavy burden to overcome
this presumption. See United States v. Chavers,
515 F.3d 722, 724 (7th Cir. 2008). Smith
expressly acknowledged during his plea colloquy

**

'A H

A-

i!

40a
that he had sufficient time to discuss the case
with Maliza. As the district court found, the
magistrate judge "was careful to give the
defendant several opportunities where he could
have said that he was being pressured ... [and]
sufficient opportunity to say that he wanted
more time." At one point, Maliza even offered to
adjourn the hearing to allow time to file
corrected information, which cuts against
Smith's argument that his counsel had rushed
him to plead guilty.
Smith cannot show prejudice. He fails to
demonstrate a reasonable probability that, but
for Maliza's pressure, he would not have pleaded
guilty. The district court was correct to reject
this claim.
Counsel's Lack of Familiarity.
Smith next asserts Maliza rendered ineffective
assistance because he lacked familiarity with
the facts of the case, emphasizing that the
public defender was "confused and unfamiliar
with the relevant facts." To support this claim,
Smith points to a portion of the change-of-plea
hearing transcript where Maliza appears to

■

JU

41a
fumble with his words: "Again, Your Honor, I
haven’t seen as much. There was some stuff that
I did — I don't, I don’t think I noticed, but the —
certainly, the evidence that pertains to the
elements ... the essential elements of the crime,
yes.” Smith also complains that he "himself had
to speak up to correct his attorney's
misrepresentations."
Smith's challenge falls short of demonstrating
ineffective assistance of counsel. "An ineffective
assistance of counsel claim cannot stand on a
blank record, peppered with the defendant's
own unsupported allegations of misconduct."
United States v. Hodges, 259 F.3d 655, 660 (7th
Cir. 2001). The district court noted that Smith
took Maliza's statements "out of context" and
read "far too much into them." The hearing
transcript shows that Maliza made the
spotlighted statement to confirm that the
: government presented evidence that met the
essential elements of the drug and firearm
charges while disagreeing with some of the
details. Viewing the statement in context, the
district court recognized that Maliza actually
demonstrated familiarity with the case. There is
no support in the record for the assertion that

iffy **+*

■

v

ils;

42a
Maliza made a misrepresentation or that
suggests his unfamiliarity with the case. The
district court therefore properly exercised its
discretion to conclude that Smith's arguments
lack record support and that he was not
prejudiced.
B
Smith insists that the district court erred by
denying his request for an evidentiary hearing
to support his motion to withdraw his guilty
plea. We review the district court's decision not
to hold an evidentiary hearing for abuse of
discretion, see United States v. Jones, 381 F.3d
615, 618 (7th Cir. 2004), and its "factual
findings, including whether the defendant
knowingly and voluntarily entered the plea, for
clear error." United States v. Perillo, 897 F.3d
878, 883 (7th Cir. 2018).
A motion to withdraw a plea does not
automatically entitle a defendant to an
evidentiary hearing because "[wjhether to hold
a hearing on the plea's validity is a matter left
to the trial court's sound discretion." United
States v. Collins, 796 F.3d 829, 834 (7th Cir.

- a
‘ '

4

11
• +

•: *••••

,♦

43 a

■

2015). To illustrate, an evidentiary hearing is
not required "if the petitioner makes allegations
that are vague, conclusory, or palpably
incredible, rather than detailed and specific.”
Gaylord v. United States, 829 F.3d 500, 506-07
(7th Cir. 2016) (internal quotation marks
omitted). A district court need not hold an
evidentiary hearing if the defendant fails to
offer substantial evidence "or if the allegations
advanced in support of the motion are
conclusory or unreliable." Collins, 796 F.3d at
834.
The district court did not abuse its discretion by
denying Smith's request for an evidentiary
hearing. The only argument that it found as
"possibly not a conclusory allegation" was the
potential success of the motion to suppress. But
the district court explained that the government
provided "the uncontested proffer" of
independent probable cause to stop Smith and
search his car. Because Smith's motion to
suppress would not have been successful, no
evidentiary hearing was necessary.
III

‘•■s. -

44a
Smith next challenges his career offender
enhancement. According to Smith, his prior
conviction for conspiring to traffic cocaine, in
violation of 21 U.S.C. § 846, does not constitute
a predicate "controlled substance offense" under
U.S.S.G. § 4B1.2. We review the district court's
application of the Sentencing Guidelines de
novo. United States v. Lewis, 842 F.3d 467, 476
(7th Cir. 2016).
We look first to the text of the guidelines
provisions that Smith disputes. Under § 4B1.1, a
defendant is a career offender if: (1) he was at
least 18 years old when he committed the
offense; (2) the instant offense is a crime of
violence or a controlled substance offense; and
(3) he "has at least two prior felony convictions
of either a crime of violence or a controlled
substance offense." U.S.S.G. § 4Bl.l(a). Section
4B1.2, in relevant part, defines "controlled
substance offense" as "an offense under federal
or state law ... that prohibits the manufacture,
import, export, distribution, or dispensing of a
controlled substance (or a counterfeit substance)
or the possession of a controlled substance (or a
counterfeit substance) with intent to
manufacture, import, export, distribute, or

• '■>

■ 5

45a
dispense." U.S.S.G. § 4B1.2. Application Note 1
to § 4B1.2 defines "controlled substance offense"
to include aiding and abetting, conspiring, and
attempting to commit such offenses. U.S.S.G. §
4B1.2 cmt. n.l. Smith contends that Application
Note 1 is an improper expansion of § 4B1.2.
Courts treat the application notes to the
Sentencing Guidelines like an agency's
interpretation of its own rules. See Stinson v.
United States, 508 U.S. 36, 44-45 (1993). In
Stinson, the Supreme Court held that courts
must give application notes "controlling weight."
Id. at 45 (quoting Bowles v. Seminole Rock &
Sand Co., 325 U.S. 410, 414 (1945)). A
corresponding application note is binding
authority "unless it violates the Constitution or
a federal statute, or is inconsistent with, or a
plainly erroneous reading of, that guideline." Id.
at 38; see United States v. Tate, 822 F.3d 370,
375 (7th Cir. 2016) (same). We apply the
application notes as "authoritative glosses on
the Guidelines, unless the notes conflict with
the text." United States v. Raupp, 677 F 3d 756,
759 (7th Cir. 2012), overruled on other grounds
by United States v. Rollins, 836 F.3d 737 (7th
Cir. 2016). ’
;

7

46a

A split of authority exists among many of the
circuits as to whether courts are to defer to
Application Note 1 when applying § 4B 1.2. In
United States v. Winstead, the D.C. Circuit
recognized a conflict between the text of § 4B1.2
and Application Note 1. 890 F.3d 1082 (D.C. Cir.
2018). It applied the interpretative canon
expressio unius est exclusio alterius to note that
§ 4B1.2 "presents a very detailed 'definition' of
controlled substance offense that clearly
excludes inchoate offenses.” Id. at 1091. Given
that the text of § 4B1.2 does not expressly
include inchoate offenses, the D.C. Circuit
concluded that Application Note 1 improperly
expands the provision's scope and declined to
recognize an attempt crime as a controlled
substance offense. Id. at 1091-92.
Similarly, the Sixth Circuit in United States v.
Havis did not extend the definition of controlled
substance offense to include attempt crimes. 927
F.3d 382 (6th Cir. 2019) (en banc) (per curiam).
It emphasized that the application notes to the
Sentencing Guidelines "serve[ ] only to interpret
the Guidelines' text, not to replace or modify it."
Id. at 386 (emphasis in original). Because

c

'•v
v:

47a
Application Note 1 adds to § 4B1.2's textual
definition, rather than interprets it, the Sixth
Circuit found the more expansive construction
impermissible. Id. at 386-87. Finally, the Third
Circuit concluded the same in United States v.
Nasir, 982 F.3d 144, 159-60 (3d Cir. 2020) (en
banc). In addition to the expressio unius
argument, that court raised a separation-ofpowers concern — namely, that deferring to the
application notes circumvents "the checks
Congress put on the Sentencing Commission."
Id. at 159. The Third Circuit "conclude[d] that
inchoate crimes are not included in the
definition of'controlled substance offenses'
given in section 4B1.2(b)." Id. at 160. Smith
relies on these cases to support his position.
Our court's precedent holds otherwise, and we
see no reason here to diverge from it. In United
States v. Adams, we held that the term
"controlled substance offense" encompasses
inchoate offenses. 934 F.3d at 729-30. There, the
defendant challenged the sentencing
enhancement.1 *. under U.S.S.G. § 2K2.1,
which
.
raises the base offense level for a felon-inpossession conviction when the defendant also
has a prior conviction for a controlled substance

48a
offense. Id. at 727. Section 2K2.1’s Application
Note 1 references § 4B1.2's Application Note 1
for the definition of "controlled substance
offense." U.S.S.G. § 2K2.1 cmt. n.l (noting that
"'[controlled substance offense' has the
meaning given that term in § 4B 1.2(b) and
Application Note 1 of the Commentary to §
4B1.2"). We concluded that § 4B1.2's Application
Note 1 is authoritative and that "controlled
substance offense" includes inchoate offenses.
Adams, 934 F.3d at 729-30. In reaching this
conclusion, we relied on Raupp, which deferred
to Application Note 1 when applying § 4B1.2
and found no conflict between them. 677 F.3d at
759. ("There cannot be a conflict because the
text of § 4B 1.2(a) does not tell us, one way or
another, whether inchoate offenses are included
or excluded."). Several other circuits agree. See,
e.g., United States v. Lange, 862 F.3d 1290,
1294-96 (11th Cir. 2017); United States v.
Nieves-Borrero, 856 F.3d 5, 9 (1st Cir. 2017);
United States v. Chavez, 660 F.3d 1215, 1228
(10th Cir. 2011); United States v. MendozaFigueroa, 65 F.3d 691, 694 (8th Cir. 1995) (en
banc).

i

H
■;<

f.

V

V

'

49a
Smith attempts to distinguish Adams from this
case but to no avail. He emphasizes that Adams
dealt with a sentencing enhancement under §
2K2.1, whereas here we address a sentencing
enhancement under § 4B1.1. But to distinguish
Adams would require us to find that there is a
conflict between § 4B1.2 and Application Note 1
when interpreting § 4B1.1 but that no such
conflict exists when interpreting § 2K2.1. We
cannot reconcile Smith's position with our
holding in Adams.
That brings us to our final issue: does § 4B1.2's
Application Note 1 encompass § 846 conspiracy
under the categorical approach? The categorical
approach asks courts to look to the generic
elements of a crime, rather than the facts
underlying how the crime was committed, when
determining whether a prior conviction is a
"controlled substance offense." United States v.
Smith, 921 F.3d 708, 712 (7t‘h Cir. 2019). A
"generic" version of an offense means "the
offense as commonly understood." Mathis v.
United States, 136 S. Ct. 2243, 2247 (2016). "If
the elements of the crime of conviction are the
same as, or narrower than, the elements of the
generic version of the offense, the crime of

. 50a
conviction qualifies as a predicate offense."
Smith, 921 F.3d at 712 (citing Mathis 136 S. Ct.
at 2247-48).
Smith thinks that under the categorical
approach, his § 846 conspiracy conviction does
not qualify as a predicate "controlled substance
offense." He points to decisions from other
circuits that have concluded Application Note 1
does not include § 846 conspiracy. See, e.g.,
United States v. McCollum, 885 F.3d 300, 30809 (4th Cir. 2018); United States v. MartinezCruz, 836 F.3d 1305, 1314 (10th Cir. 2016).
These decisions found generic conspiracy to
require an overt act in furtherance of the
conspiracy. Because § 846 lacks an overt-act
requirement, Smith asserts, it "criminalizes a
broader range of conduct than that covered by
generic conspiracy." He adds that a § 846 offense
does not fall within the ambit of § 4B1.2’s
definition of "controlled substance offense."
The Second Circuit recently took a different
approach in United States v. Tabb, 949 F.3d 81
(2d Cir. 2020). The defendant in Tabb argued
that Application Note 1 covers only "generic"
conspiracy, and by implication, excludes the

C'

•> •'
•-

51a
broader § 846 narcotics conspiracy. Id. at 88.
The Second Circuit disagreed. It first explained
that generic conspiracy encompasses § 846
conspiracy because ”[t]he essence of a
conspiracy is an agreement by two or more
persons to commit an unlawful act." Id.
Although it recognized that common law often
required an overt act as an element of a
conspiracy offense, the Second Circuit found the
requirement unnecessary given that "Congress
has chosen to eliminate this requirement in the
case of several federal crimes, most notably
narcotics conspiracy." Id. (citing United States
v. Shabani, 513 U.S. 10, 14-15 (1994)). The court
concluded that reading Application Note 1 to
cover § 846 narcotics conspiracy would best
preserve the internal consistency of the
Sentencing Guidelines. Id. (noting that the
defendant's reading would "require finding that
term 'conspiracy' includes Section 846 narcotics
conspiracy in some parts of the guidelines, but
not others" (citations omitted)). Other circuits
have drawn similar conclusions. See, e.g.,
United States v. Rivera-Constantino, 798 F.3d
900, 903-94 (9th Cir. 2015); United States v.
Rodriguez-Escareno, 700 F.3d 751, 753-54 (5th
Cir. 2012).

i ■•

52a

We agree that Application Note 1 encompasses §
846 conspiracy. First, the plain language of
Application Note 1 unambiguously includes
conspiracy as a "controlled substance offense.”
U.S.S.G. § 4B1.2 cmt. n.l. We find no reason to
construe the word "conspiring" in Application
Note 1 to exclude § 846 conspiracy, especially
given that an overt act is not always a required
element in the narcotics conspiracy context.
Second, the narrow reading that Smith proposes
would lead to conflicting textual and structural
consequences. Under his reading, a § 846
conspiracy would constitute a controlled
substance offense when interpreting § 2K2.1, as
we do in Adams, but not when interpreting §
4B1.1, as we do here. It would also mean that
the Sentencing Commission, when it included
the term "conspiring" in § 4B1.2’s Application
Note 1, intended to exclude federal conspiracy
from the federal Sentencing Guidelines. See
Tabb, 949 F.3d at 88 (citing Rivera-Constantino,
798 F.3d at 904). That cannot be, so we are not
persuaded by Smith's interpretation.
Considering that "identical words and phrases
within the same statute should normally be

s

*.

L"
}

-

•>A

-r

t

53a
given the same meaning,” Powerex Corp. v.
Reliant Energy Servs., Inc., 551 U.S. 224, 232
(2007), we conclude that reading § 4B1.2's
Application Note 1 to include § 846 conspiracy
would best preserve the internal consistency of
the Sentencing Guidelines and avoid any textual
or structural pitfalls. Smith's § 846 conspiracy
conviction is thus a valid predicate offense
under § 4B1.1, and the district court correctly
applied the career offender enhancement to his
sentence.

\
\
\

IV
For these reasons, we AFFIRM the district
court's decision.

'•: V

